I

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-2218
KEITH FERNANDEZ,
Petitioner,
v.
THE WHARTON SCHOOL OF THE
UNIVERSITY OF PENNSYLVANIA, et al.,
Respondent,

CERTIFICATE OF SERVICE

I, Keith M. Fernandez, counsel, pro se, hereby certify that on March 25,
2021, I caused three copies of the Petition for Writ of Certiorari to be
served by United States Postal Service and via electronic email to the
following counsel:
James A. Keller
Saul Ewing Arnstein & Lehr
1500 Market Street
Centre Square West, 38th Floor
Philadelphia, PA 19102
Attorney for Respondent

Carolyn A. Pellegrini
Saul Ewing Arnstein & Lehr
1500 Market Street
Centre Square West, 38th Floor
Philadelphia, PA 19102
Attorney for Respondent

I further certify that all parties required to be served have been served.
Executed on March 25, 2021.

l7|S(1T2K'H3<)5og(PZ5

KEITH M. FERNANDEZ
Counsel of Record, Pro Se
1713 Bridgewater Dr
Lake Mary, Florida 32746
321.666.9000 voice
biblem atthe w5.5(Fem ail, com

RECEIVED
APR - 2 2021
9FFICE OF THE CLERK
SUPREME COURT. U.S.

